LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

October 15, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 21-228: MICHAEL MURPHY V. RICHARD SARTA, ET AL.
Dear Sir or Madam:

I hereby certify that at the request of counsel for the Respondents, on October
15, 2021, I caused service to be made pursuant to Rule 29 on the pro se Petitioner:
PETITIONER:
Michael Murphy
P.O. Box 1365
Morristown, TN 37816
423-581-1022
This service was effected by depositing three copies of the Respondents' Brief in
Opposition in an official “first class mail” receptacle of the United States Post Office,
pro se Petitioner has no known electronic mail address.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 15th day of October 2021.

